DOE/IG-0455




 INSPECTION                           INSPECTION OF
   REPORT                             THE SALE OF A
                                 PARAGON SUPERCOMPUTER
                                           BY
                              SANDIA NATIONAL LABORATORIES




                                     DECEMBER 1999




 U.S. DEPARTMENT OF ENERGY
OFFICE OF INSPECTOR GENERAL
    OFFICE OF INSPECTIONS
    MEMORANDUM FOR THE SECRETARY

    FROM:               Gregory H. Friedman
                        Inspector General

    SUBJECT:            INFORMATION: Report on “Inspection of the Sale of a Paragon
                        Supercomputer by Sandia National Laboratories,” DOE/IG-0455



    BACKGROUND

    On July 27, 1999, we initiated an inspection into the facts and circumstances surrounding
    the sale and repurchase of an INTEL Paragon XPS supercomputer (Paragon) by Sandia
    National Laboratories (Sandia), Albuquerque, New Mexico. This inspection was
    initiated at your request based on concerns that the sale of the Paragon supercomputer to
    a Chinese national could be detrimental to the national security of the United States.

    RESULTS OF INSPECTION

    The inspection disclosed that Sandia failed to exercise prudent management judgment in
    its determination to excess and the process it used to sell the Paragon computer. Further,
    Sandia was not sufficiently sensitive to potential national security issues associated with
    the sale of the supercomputer. Specifically:

•   Sandia did not treat the Paragon as high risk property at the time of the sale even
    though it met the high risk criteria for export controlled property; and, it could arguably
    have met the high risk criteria for proliferation sensitive property.

•   Sandia failed to include the required export/import clause in the sales invitation for bid
    and did not use the proper Export Restriction Notice for high risk property required by
    the Department’s Property Management Regulations.

•   Sandia sold the Paragon with at least 34 manuals, guides, and notes relating to the
    operation and maintenance of the Paragon system that were not reviewed for export
    control considerations prior to the sale. The Department of Commerce is currently
    investigating the possibility of a deemed export violation.
                                               2


•   Sandia sold the Paragon with approximately 130 “unclassified” data storage disks that
    were not sanitized prior to sale. While there is currently no evidence that the
    “unclassified” disks contained classified information, no one at Sandia attempted to make
    a determination of the exact nature of the information contained on the disks.

•   Sandia sold the Paragon before it completed the required 36-day reutilization screening
    period.

•   Sandia’s approved Property Management System did not contain any written procedures for
    the sale of excess property.

•   Sandia did not address potential national security concerns after the Paragon was sold.
    Specifically, Sandia failed to act on two separate occasions after learning that the
    company that purchased the Paragon might have had intentions of providing Paragon
    parts to the People’s Republic of China.

    While there was a clear breakdown at several levels at Sandia, we concluded that a
    fundamental weakness in the sale of the Paragon was that senior level management
    officials were not aware of the sale and were not, therefore, afforded the opportunity to
    exercise management judgement on how to dispose of high risk property like a Paragon
    supercomputer. In fact, one Sandia senior vice president called the sale of the Paragon an
    action of “enormous stupidity.”

    We made several recommendations to the Manager of the Albuquerque Operations
    Office that address weaknesses in Sandia’s High Risk Property Control Process and
    Sandia’s Property Management process. We also made a recommendation to the General
    Counsel for the development of an opinion on the legality of Department contractors
    inquiring about the possible foreign ownership of companies that bid on excess property.

    MANAGEMENT REACTION

    Management concurred or partially concurred with the recommendations and has
    initiated, or is in the process of initiating, appropriate corrective actions.


    Attachment

    cc: Deputy Secretary
        Under Secretary
INSPECTION OF THE SALE OF A PARAGON
SUPERCOMPUTER BY SANDIA NATIONAL LABORATORIES


TABLE OF
CONTENTS


              Overview


              Introduction and
              Objectives..………………………………………………...           1

              Observations and
              Conclusions………………………………………………..             2

              Details of
              Finding……………………………………………………..               5

              Sandia’s Adherence to Property
               Management Requirements……………………………         5

              Sandia’s Adherence to Applicable
               Export Control Requirements…………………………..    9

              Approval for the Sale of the Paragon
               Supercomputer………………………………………….. 12

              Actions Taken by Sandia to Address Concerns
               After the Sale of the Paragon………………………….. 13

              Recommendations……………………………………….. 15

              Management Reaction…………………………………... 16

              Inspector Comments……………………………………... 17

              Appendices

              I. Scope and Methodology…………………………….. 19

              II. Additional Concerns Regarding the
                  Sale of the Paragon………………………………….. 21
Overview
Introduction                       On July 27, 1999, the Office of Inspector General, U.S. Department
and Objectives                     of Energy (Department) initiated an inspection into the facts and
                                   circumstances surrounding the sale and repurchase of an INTEL
                                   Paragon XPS supercomputer (Paragon) by Sandia National
                                   Laboratories (Sandia), Albuquerque, New Mexico. Sandia
                                   originally purchased the Paragon from INTEL Corporation on
                                   July 1, 1993, for $9.554 million. According to the Sandia Senior
                                   Vice President for National Security and Arms Control, the
                                   justification for the purchase of the Paragon included the fact that
                                   it was a cutting edge research instrument essential to the
                                   Department’s nuclear weapons program.

                                   On September 29, 1998, after approximately five years of use,
                                   Sandia sold the Paragon for $30,888 to EHI Group (EHI) USA,
                                   Inc., a company incorporated in the State of California.1 The sale
                                   included 21 cabinets of processors and hard drives, the operating
                                   system, and 34 manuals, guides, and notes. According to Sandia’s
                                   Chief Information Officer, if reassembled, the Paragon would be
                                   one of the 100 fastest computers in the world, having the capability
                                   to operate at 190,000 million theoretical operations per second
                                   (MTOPS). On July 21, 1999, after concerns were raised that the
                                   Paragon might be exported to the People’s Republic of China,
                                   Sandia repurchased the Paragon from EHI for $88,888. The
                                   Paragon is currently in storage at Sandia’s facility in Livermore,
                                   California.

                                   This inspection was initiated at the request of the Secretary of
                                   Energy. In a memorandum to the Inspector General dated
                                   July 26, 1999, the Secretary wrote that, according to recent press
                                   reports, Sandia had sold the Paragon to a Chinese national residing
                                   in California. Concerns have been raised both within and outside
                                   the Government that the sale of the Paragon supercomputer to a
                                   Chinese national could be detrimental to the national security of
                                   the United States.

                                   The objectives of this inspection were to determine: (1) if Sandia
                                   followed applicable property management requirements in the
                                   excessing and sale of the Paragon; (2) if Sandia followed all of the
                                   applicable export control requirements in the sale of the Paragon;
                                   (3) if any officials in the Department of Energy or senior level
                                   Sandia officials knew of and/or approved the sale of Paragon; and,
                                   (4) if Sandia and Department officials took appropriate actions
                                   when they learned about the sale of the Paragon to a Chinese
                                   national.

1
  Since the sale of the Paragon, the Chief Executive Officer (CEO) of EHI has been identified as a Chinese national
living in the United States as a non-immigrant worker.

Page 1                                         Inspection of the Sale of a Paragon Supercomputer
                                               by Sandia National Laboratories
Observations and   In the process of excessing and selling the Paragon, Sandia did not
Conclusions        fully comply with the High Risk Personal Property Procedures
                   contained in the Department’s Property Management Regulations.
                   Of particular significance, Sandia did not treat the Paragon as high
                   risk property at the time of sale even though it met the high risk
                   criteria for export controlled property, and could arguably have
                   met the high risk criteria for proliferation sensitive property. As a
                   result, Sandia did not perform a documented evaluation of the
                   Paragon for any significant risks to national security and nuclear
                   non-proliferation as required by the Property Management
                   Regulations, thereby missing an opportunity to receive input from
                   senior Department or Sandia officials on whether to proceed with
                   the sale or render the Paragon useless for its original intended
                   purpose.

                   Sandia also failed to include the required export/import clause in
                   the sales invitation for bid. Sandia did place an export clause on
                   the shipping document. However, Sandia did not consider the
                   Paragon to be high risk property at the time of sale, and did not use
                   the Export Restriction Notice for high risk property required by the
                   Department’s Property Management Regulations. As a result, the
                   notice given to EHI did not include a reference to the Espionage
                   Act, nor was there a direct statement that “the use, disposition,
                   export and reexport of this property are subject to all applicable
                   laws and regulations.” In addition, Sandia sold the Paragon with at
                   least 34 manuals, guides, and notes relating to the operation and
                   maintenance of the Paragon system that were not reviewed for
                   export control considerations prior to sale. The Department of
                   Commerce (Commerce) is currently investigating the possibility of
                   a deemed export violation associated with the 34 manuals, guides,
                   and notes.

                   Sandia also sold the Paragon with approximately 130
                   “unclassified” data storage disks that were not sanitized prior to the
                   sale to EHI. Sandia’s focus was on selling the Paragon as an
                   operating system to maximize their return on investment, and
                   Sandia made a conscious decision that to sanitize the
                   “unclassified” disks would render the Paragon worthless except for
                   scrap or parts. While there is currently no evidence that the
                   “unclassified” disks contained classified information relating to
                   Sandia’s classified operations of the Paragon, Sandia did not know
                   the exact nature of the information contained on the “unclassified”
                   disks at the time the Paragon was sold. In fact, no one at Sandia
                   attempted to make this determination. The Department’s Office of
                   Security Affairs attempted to have the information stored on some
                   of the “unclassified” disks read in order to determine if there was



Page 2                                              Observations and Conclusions
                                   any classified, sensitive unclassified, or export controlled
                                   information on them. However, they were unable to retrieve
                                   interpretable data.

                                   In addition, Sandia sold the Paragon before it completed the
                                   required 36-day reutilization screening period. We also noted that
                                   Sandia’s approved Property Management System did not contain
                                   any written procedures for the sale of excess property.

                                   Sandia also did not address potential national security concerns
                                   after the Paragon was sold. Specifically, in December 1998,
                                   Sandia personnel learned of concerns that EHI may have had
                                   intentions of providing Paragon parts to the People’s Republic of
                                   China, but failed to act. Sandia treated these concerns as
                                   “unsupported speculation” that was insufficient to cause the matter
                                   to be brought to the attention of Sandia’s export control or
                                   counterintelligence offices. Then in June 1999, the concerns
                                   resurfaced but were not reported to counterintelligence. As a
                                   result, the Paragon remained in the possession of EHI from
                                   December 1998 until July 1999, when the media raised additional
                                   concerns about the sale. Sandia then learned that a Chinese
                                   national was the CEO of EHI. Sandia, in coordination with
                                   Department officials, then took action to locate the Paragon, put its
                                   storage location under surveillance, and initiate negotiations to buy
                                   it back.

                                   We believe that a fundamental weakness in the sale of the Paragon
                                   was that senior level management officials were not aware of the
                                   sale. Therefore, senior level officials were not afforded the
                                   opportunity to provide input or exercise management judgement on
                                   how to dispose of high risk property like a Paragon supercomputer.
                                   Property that is not on the trigger list, munitions list, or dual use
                                   list2 could still be considered sensitive from a national security or
                                   nonproliferation standpoint. For the most part, Sandia treated the
                                   Paragon as if it were any other piece of excess property, when, in
                                   fact, it was a supercomputer that had been used in the
                                   Department’s Nuclear Weapons Program. Sandia’s High Risk
                                   Property Control Process, and approved property management
                                   procedures, had focused primarily on weapons and weapon
                                   components prior to the sale of the Paragon. There was minimal
                                   emphasis on computing equipment as high risk. As a result, the

2
  Trigger List means nuclear material, equipment, and related technology as described in the International Atomic
Energy Agency Information Circular (INFCIRC) 254, Part 1. Munitions list means articles, services, and related
technical data designated as defense articles and defense services by the Arms Export Control Act of 1968, as
amended. Dual use list means nuclear-related material, equipment, and related technology as described in the
INFCIRC 254, Part 1.


Page 3                                                                   Observations and Conclusions
         process for excessing and selling the Paragon did not include any
         input or management judgement by senior level officials on
         potential risks to national security and nuclear non-proliferation.
         The Sandia Senior Vice President for National Security and Arms
         Control said that when he served as the Sandia Senior Vice
         President for National Security Programs, the issue of excessing
         and disposing of the Paragon never came before him. The Sandia
         Senior Vice President said that if it had come to him, he would
         have said “no” to the sale of the Paragon. He said that it was
         “enormous stupidity” to sell the Paragon.

         The Department’s Office of Contract and Resource Management
         has prepared an “INCIDENT REVIEW TEAM REPORT” titled
         “SANDIA NATIONAL LABORATORIES’ SALE OF AN INTEL
         PARAGON SUPERCOMPUTER.” This review addressed the
         sale of the Paragon and covered an evaluation of Sandia’s
         compliance with High Risk Property Procedures and the
         Guidelines on Export Control and Non-proliferation. While the
         review team’s report and this report do address different issues,
         these reports contain similar findings in some areas. However, a
         notable difference exists in the conclusions on whether Sandia
         followed the High Risk Personal Property Procedures contained in
         the Department’s Property Management Regulations.




Page 4                                   Observations and Conclusions
Details of Finding
Sandia’s Adherence to              The Department’s Property Management Regulations, 41 CFR
Property Management                subpart 109-1.53, “Management of High Risk Personal Property,”
Requirements                       provides identification, accounting, control, and disposal policy
                                   guidance for the following categories of high risk personal
                                   property:

                                   •   Especially designed or prepared property.
                                   •   Export controlled property.
                                   •   Nuclear weapon components or weapon-like components.
                                   •   Proliferation sensitive property.

                                   These regulations state that “[i]tems of high risk property may
                                   present significant risks to the national security and nuclear non-
                                   proliferation objectives of the Government which must be
                                   evaluated.” These regulations also provide that organizations will
                                   identify high risk property and control its disposition to eliminate
                                   or mitigate such risks. In addition, these regulations state that the
                                   “designated contractor property management organization may not
                                   process high risk personal property into a reutilization/disposal
                                   program without performing the reviews prescribed by the local
                                   high risk property management system,” and that the reviews must
                                   be properly documented.

Sandia’s High Risk                 However, the high risk assessment performed by Sandia was not
Assessment                         consistent with the Department’s Property Management
                                   Regulations. Sandia’s high risk assessment primarily consisted of
                                   the Property Administrator asking a Sandia employee in early 1998
                                   whether another supercomputer was a high risk item. The Property
                                   Administrator was told that the other supercomputer was not high
                                   risk, but was export controlled due to its speed. The Property
                                   Administrator said that he applied this information to the Paragon
                                   and determined that the Paragon was not a high risk item.

                                   Although Sandia recognized that the Paragon was “export
                                   controlled property,” Sandia did not recognize that “export
                                   controlled property” is also high risk property.3 In addition, Sandia
                                   did not consider whether the Paragon should be included under the
                                   Property Management Regulations’ definition for “proliferation
                                   sensitive property.” Since Sandia did not consider the Paragon to
                                   be high risk, Sandia did not perform a documented evaluation of
                                   the Paragon for any significant risks to national security and
                                   nuclear non-proliferation.



3
 The Property Administrator acknowledged during our inspection that anything that is export controlled is
considered to be high risk.


Page 5                                                                                  Details of Findings
                                  Evidence strongly suggests that the Paragon should have been
                                  considered “proliferation sensitive property.” Specifically, the
                                  Paragon meets the definition of “proliferation sensitive property,”
                                  identified in 41 CFR § 109-1.100-51 as “nuclear-related or dual-
                                  use equipment, material, or technology as described in the Nuclear
                                  Suppliers Group Trigger List and Dual-Use List, or equipment,
                                  material, or technology used in the research, design,
                                  development, testing, or production of nuclear or other
                                  weapons [emphasis added].” Officials from Sandia, INTEL, and
                                  the Department have acknowledged that the Paragon could still be
                                  useful in a weapons program. For example, the Department’s
                                  Deputy Assistant Secretary for Research, Development and
                                  Simulation within the Office of Defense Programs said that such a
                                  computer could be highly valuable to a military program. He said
                                  that, upon hearing that the Paragon had been sold, his primary
                                  concern was national security. He said that he felt it was a
                                  “…huge national security risk to sell this computer.” He said that
                                  he was concerned because Sandia was looking at the sale as an
                                  export control issue, and no one was looking at it from the
                                  standpoint of national security.

Sandia’s High Risk                The Department’s Property Management Regulations require an
Property Control                  evaluation of items of high risk property for risks to the national
Process                           security and nuclear non-proliferation objectives of the
                                  Government. However, Sandia’s Personal Property Management
                                  Process Manual under RP-14, “High Risk Property Control,” and
                                  the associated Sandia High Risk Property Home Page, do not
                                  address the evaluation of high risk property for such risks.4

                                  Sandia’s Property Administrator said that, at the time of the
                                  Paragon sale, the emphasis for high risk property was on weapons
                                  and weapon components. He said that Stockkeepers in the
                                  Reapplication yard had been through a non-proliferation class
                                  which made them good at identifying weapons components, and
                                  that property personnel had received some training on nuclear
                                  weapons and weapons components. He said that, prior to the
                                  Paragon, the emphasis on computing equipment as high risk
                                  property was very minimal.




4
 Sandia’s process for the management of high risk property is part of Sandia’s Property Management System that
was approved by the Albuquerque Operations Office in April 1998.


Page 6                                                                                Details of Findings
Sanitization of                    Sandia sold the Paragon with approximately 130 “unclassified”
Computer Disks                     data storage disks that were not sanitized before the Paragon was
Prior to the Sale                  acquired by EHI. The Department’s Property Management
of the Paragon                     Regulation, 41 CFR § 109-43.307-53, “Automatic data processing
                                   equipment (ADPE),” requires that all automatic data processing
                                   equipment be sanitized before being transferred into an excess
                                   status to ensure that all data, information, and software has been
                                   removed from the equipment.

                                   However, the Acting Manager, Property Management and
                                   Reapplication Organization, acknowledged that the Paragon
                                   “unclassified” disks were not sanitized. The Acting Manager said
                                   that to further sanitize the system in the traditional sense would
                                   have effectively rendered the Paragon worthless except for scrap or
                                   parts. Other Sandia personnel told us that the Paragon was sold as
                                   an operating system in order to maximize the return on Sandia’s
                                   original investment in this property.

Process for Assuring               Sandia maintained a process during the operation of the Paragon
That No Classified                 that they believed assured that no classified information was
Information Was                    contained on the “unclassified” disks. A Technical Staff Member
Contained on the                   said that the Paragon had two separate sides: an unclassified side
“Unclassified” Disks               that could be accessed via the internet by many different
                                   authorized users; and, a classified side that was only accessible to
                                   individuals who had the access code and a “need to know.” The
                                   Technical Staff Member said that the computer had triple
                                   redundant security procedures to prevent classified information
                                   from being stored on the “unclassified disks.” He said that
                                   Paragon’s classified disks were removed and degaussed by
                                   Sandia’s Central Site Operations staff.5 An INTEL employee who
                                   worked with the Paragon identified 42 “classified” disks, 15 tapes,
                                   and two floppy disks that were removed from the system, and
                                   “degaussed” in order to remove all classified information.

                                   However, while there is currently no evidence that the
                                   “unclassified” disks contained classified information relating to
                                   Sandia’s classified operations of the Paragon, the process for
                                   excessing the Paragon did not provide assurance that there was no
                                   classified, sensitive unclassified, or export controlled information
                                   on the “unclassified" disks. Specifically, Sandia did not know the
                                   exact nature of the information contained on the “unclassified”
                                   disks at the time the Paragon was sold. In fact, no one at Sandia
                                   made any attempt to determine exactly what information was on

5
  Degaussing is a process whereby the magnetic field is removed or neutralized. At Sandia, the degaussing process
involves the use of a National Security Agency (NSA) certified machine that interrupts the data contained in the
media.


Page 7                                                                                  Details of Findings
                                   the “unclassified” disks prior to the sale. The Department removed
                                   some of the “unclassified” disks from the Paragon’s storage
                                   location in Livermore, California, and attempted to read the
                                   information stored on these disks in order to determine if there was
                                   any classified, sensitive unclassified, or export controlled
                                   information on them. However, they were unable to retrieve
                                   interpretable data.

Reutilization                      Sandia sold the Paragon before it completed the required
Screening                          reutilization screening. The Department’s Office of Procurement
                                   and Assistance Management requires a total of 36 days for
                                   screening within the Department and with other Federal agencies.
                                   Specifically, a 15-day period is required to allow the Department
                                   an opportunity to redistribute the property internally. If no
                                   organization within the Department requests the property, Federal
                                   Property Management Regulations, Temporary Regulations H-29,
                                   requires that the property be offered to other Federal agencies for a
                                   period of 21 calendar days.

                                   Sandia entered the Paragon into the Department’s Reportable
                                   Excess Automated Property System (REAPS) on September 10,
                                   1998. Under the current guidelines, this would have made the
                                   Paragon surplus property eligible for sale on October 16, 1998.6
                                   However, the Request for Bids for the Paragon was issued on
                                   September 16, 1998, and EHI’s bid was accepted on September 29,
                                   1998. Sandia’s Property Administrator said that, by the time the
                                   Paragon was acquired by EHI (October 27, 1998), the screening
                                   period had expired. However, he acknowledged that there could
                                   have been an issue if another Federal agency had requested the
                                   Paragon after Sandia had sold it.

Sandia’s Procedures                The Paragon was sold under Sandia’s “excess” property sales
for the Sale of                    process. However, Sandia’s approved Property Management
Excess Property                    System did not contain any written procedures for the sale of
                                   excess property. Sandia’s approved Property Management System
                                   includes their Personal Property Management Process Manual, but
                                   this manual only includes written procedures for “Auction Sales.”

                                   Sandia’s Property Administrator said that, in the fall of 1997, the
                                   issue was raised that there were brokers that could sell excess
                                   property items for more than the Property Management and
                                   Reapplication organization was getting from auction sales. He said
                                   that Sandia initially used a contractor that conducted excess sales,
                                   but terminated the contract and began selling excess property on

6
 This date is calculated by considering the 15-day screening period within the Department and the 21-day screening
period for other Federal agencies.


Page 8                                                                                  Details of Findings
                                   their own. The Property Administrator said that, at the time the
                                   Paragon was sold, Sandia did not have any written excess sales
                                   procedures that had been approved by the Albuquerque Operations
                                   Office. He said that they are in the process of developing their
                                   written excess sales procedures, and that a draft of these
                                   procedures dated May 6, 1999, has been given to the Albuquerque
                                   Operations Office for review and approval. The Property
                                   Administrator said that the Department was aware of Sandia’s
                                   excess sales program, and that they received encouragement from
                                   the Department to conduct excess sales.

Sandia’s Adherence                 The Acting Manager of the Sandia Property Management and
to Applicable Export               Reapplication Organization stated that all regulations, guidelines
Control Requirements               and processes pertaining to export control were adhered to in the
                                   sale of the Paragon. In a July 31, 1999, self-assessment “Memo of
                                   Record Regarding Paragon Sale,” the Acting Manager stated that
                                   an export control review was performed, and that the transfer of
                                   the Paragon was made within the United States and included
                                   export control guidance. She also stated that the transfer was made
                                   to a “US Person” (a company legally incorporated in California).

                                   According to the Sandia Export Control Coordinator, Sandia’s
                                   export control review contained two elements. The Export Control
                                   Coordinator said that he looked at a list that was included under the
                                   Export Administration Regulations to determine if the owner of
                                   EHI was someone that had been observed or caught re-exporting or
                                   illegally diverting export controlled items. This list, published in
                                   the Federal Register and included on the Denied Persons List,
                                   identifies individuals who were denied export privileges. The
                                   Export Control Coordinator said that he also looked at a second
                                   list, prepared by the Department of Treasury, which identifies
                                   certain countries and groups to determine if EHI was on the list of
                                   organizations and individuals that Sandia should not be doing
                                   business with. The Export Control Coordinator told us that he did
                                   not find EHI or its CEO on either list.

                                   The Paragon was determined to be export controlled by the
                                   Property Administrator because it operated at a speed of 190,000
                                   MTOPS, considerably above Commerce’s export limit of 2,000
                                   MTOPS in effect at the time of the Paragon sale to EHI.7 The
                                   Department’s Property Management Regulations, 41 CFR subpart
                                   109-45.3, “Sale of Personal Property,” at 41 C.F.R. § 109-45.301-
                                   51, requires an export/import clause on all sales invitations for bid.
                                   However, Sandia failed to include any export/import clause on the

7
 This determination was made as a result of the Property Administrator’s inquiry concerning whether a
supercomputer should be considered high risk, and not as a result of any export control review.


Page 9                                                                                 Details of Findings
                                      sales invitation for bid. As a result, EHI was not notified before
                                      the sale that export restrictions were a consideration.

                                      In her July 31, 1999, self-assessment, the Acting Manager of the
                                      Sandia Property Management and Reapplication Organization
                                      stated that the Department’s Property Management Regulations
                                      required the inclusion of an export notice in “the invitation to bid,”
                                      and that this “…clearly was an oversight on the part of this
                                      organization.” She stated that this “…minor deviation is rendered
                                      substantially less serious as a result of [the Property Administrator]
                                      having provided the export control disclosure to [the CEO of EHI]
                                      when he took possession of the equipment.” The Acting Manager
                                      was referring to inclusion of the following clause on the Paragon
                                      shipping document:

                                               “ALL COMMODITIES MAY BE SUBJECT TO
                                               EXPORT CONTROLS UNDER THE CODE OF
                                               FEDERAL REGULATIONS, TITLES L0, [sic] 15,
                                               22 & 31. ANY EXPORT OF THESE
                                               COMMODITIES CONTRARY TO U.S. LAW IS
                                               PROHIBITED. FOR ASSISTANCE CALL THE
                                               U.S. DEPARTMENT OF COMMERCE, BUREAU
                                               OF EXPORT ADMINISTRATION. THE
                                               INFORMATION IN THIS PARAGRAPH
                                               REGARDING EXPORT REQUIREMENTS
                                               MUST ACCOMPANY ANY TRANSFER/SALE
                                               OF THESE COMMODITIES.”

                                      We were told that Sandia places this clause on all shipping
                                      documents as a matter of routine. However, the use of this export
                                      clause as part of the sale of the Paragon was not consistent with the
                                      requirements of the Department’s Property Management
                                      Regulations. Specifically, 41 CFR § 109-1.5303 (b) (6) requires a
                                      prescribed “Export Restriction Notice” for the transfer, sale, or
                                      other offerings of high risk personal property.

                                      Since Sandia did not consider the Paragon to be high risk at the
                                      time of sale, Sandia did not use the required high risk “Export
                                      Restriction Notice” as required by the Department’s Property
                                      Management Regulations. Notably missing in any documents
                                      relating to the sale of the Paragon was (1) any reference to the
                                      Espionage Act8 and prohibitions on the making of false statements
                                      and concealment of any material information regarding use or
                                      disposition, export or reexport of the property, and (2) a direct
                                      statement that “The use, disposition, export and reexport of this
8
    The citation for the Espionage Act is 18 U.S.C. § 792 et seq.


Page 10                                                                             Details of Findings
                 property are [emphasis added] subject to all applicable U.S. laws
                 and regulations.”

Deemed Exports   The Export Administration Regulations (EAR), issued by the
                 Department of Commerce, state that a deemed export is any
                 release to a foreign national of technology or source code subject
                 to the EAR. Such release is deemed to be an export to the home
                 country or countries of the foreign national. In her self-
                 assessment, the Acting Manager of the Property Management and
                 Reapplication Organization stated that Sandia adhered to all
                 regulations, guidelines and processes pertaining to high risk and
                 export control, the Department’s Guidelines on Export
                 Control/Non-Proliferation, and the EAR.

                 In July 1999, Sandia requested that an outside law firm provide
                 them with advice concerning U.S. export control laws as they
                 applied to the sale. On July 23, 1999, this law firm opined that
                 there are only two ways that a purely domestic U.S. transaction
                 might be subject to the EAR. One is where a U.S. item is sold
                 domestically with “knowledge” that it was to be illegally exported.
                 The other is where technology or software source code is released
                 to a foreign national in the United States. Sandia officials said that
                 they had no knowledge, prior to the sale, that the CEO of EHI had
                 any intentions of exporting the Paragon to the People’s Republic of
                 China. According to the law firm, absent Sandia’s “knowledge”
                 that an item was to be illegally exported, there would be no
                 violation of this provision in a purely domestic U.S. transaction.

                 The law firm also stated that the mere inspection of controlled
                 equipment might not convey licensable technology, in which case
                 “no deemed export would have occurred.” They also stated that “a
                 release of software can be considered a deemed export.” However,
                 they noted that “the deemed export rule only applies to source code
                 software and excludes object code software.” The law firm stated
                 that, provided the software sold with the Paragon was object code,
                 the release of the object code software to the CEO of EHI in the
                 United States “could not be considered a deemed export of
                 software and therefore would not raise the possibility of a deemed
                 export violation of the EAR.”

                 However, EHI may have had the opportunity to do more than
                 merely inspect controlled equipment. The Paragon was sold to
                 EHI with 34 manuals, guides, and notes relating to the operation
                 and maintenance of the Sandia Paragon system that were not
                 reviewed for export control considerations prior to the sale. These
                 included items such as a Hardware Maintenance Manual; a



Page 11                                                        Details of Findings
                        Hardware Installation Manual; a High-Performance Parallel
                        Interface Manual; a System Cabling Guide; and a Paragon OSF/1
                        Operating System-Programmer’s Reference.

                        It is not clear if these manuals, guides, and notes contain any
                        export controlled information that would result in a deemed export
                        violation, or if the inspection of the Paragon parts would constitute
                        a release of technology. To address these issues, the Department
                        has sent relevant material to the Department of Commerce’s Office
                        of Export Enforcement for their review.

Approval for the Sale   As mentioned earlier, the Paragon was sold under Sandia’s
of the Paragon          “excess” property sales process. In the fall of 1997, the Director of
Supercomputer           the Sandia Computation, Computers, and Math Center accepted a
                        recommendation from his organization to excess the Paragon
                        supercomputer. He stated that reasons for excessing the Paragon
                        were: (1) Sandia had recently purchased another supercomputer
                        15 times more powerful than the Paragon; (2) Sandia had
                        determined that maintaining and operating the Paragon would have
                        cost the laboratory close to $3 million; and, that (3) there were
                        reliability problems associated with the Paragon, so that nuclear
                        weapons calculations could not be done.

                        In June 1998, Sandia’s Property Management and Reapplication
                        Organization assisted the Computation, Computers, and Math
                        Center in an attempt to sell the Paragon. The Paragon was placed
                        for bid under Property Management Regulations controlling
                        “ULITIZATION AND DISPOSAL OF PERSONAL PROPERTY
                        PURSUANT TO EXCHANGE/SALE AUTHORITY,” 41 CFR
                        part 101-46. On July 17, 1998, Property Management and
                        Reapplication received one bid of $2,550 from Century Computer
                        Sales. On August 5, 1998, the decision was made jointly between
                        Property Management and Reapplication and the Computation,
                        Computers, and Math Center to excess the Paragon. On August 6,
                        1998, Property Management and Reapplication formally rejected
                        the bid.

                        On August 13, 1998, Property Management and Reapplication
                        accepted the Paragon into Sandia’s excess disposal process. The
                        Property Administrator said that he, in consultation with the
                        Manager of the Computational Physics Research and Development
                        Department, decided to make a second attempt to sell the
                        supercomputer. On September 16, 1998, the Paragon was placed
                        for bid a second time under the Department’s Property
                        Management Regulations regarding Sale, Abandonment, and
                        Destruction of Personal Property. On September 25, 1998, Sandia



Page 12                                                               Details of Findings
                      received a bid of $30,888 from EHI. On September 29, 1998,
                      Sandia accepted EHI’s bid. Title to the Paragon was transferred to
                      EHI on October 26, 1998.

                      We found no evidence that any Department Headquarters or
                      Albuquerque Operations Office official approved the sale of the
                      Paragon or even knew that the Paragon was being sold in
                      September 1998. Albuquerque Operations Office property
                      management officials said that they did not become aware of the
                      sale until concerns were raised in July 1999. They said that they
                      would not routinely be involved in the sale of individual pieces of
                      excess property. Kirtland Area Office personnel stated that they
                      first found out about the sale of the Paragon on, or about, July 14,
                      1999, and that Department headquarters personnel became
                      involved during the same time frame.

                      Likewise, we found no evidence that any senior level Sandia
                      official approved the sale of the Paragon or knew that it was being
                      sold at that time. The Sandia Senior Vice President for National
                      Security and Arms Control said that, when he managed Sandia’s
                      National Security Programs, no one mentioned to him that the
                      Paragon was to be sold. He said that he first learned of the sale
                      after concerns were raised that the Paragon was sold to a Chinese
                      national. Additional comments from the Sandia Senior Vice
                      President are included in the “Observations and Conclusions”
                      section of this report.

                      The Senior Vice President said that he believed there should have
                      been some discussion on what to do with the Paragon due to its
                      original cost and the purpose for which it was originally acquired
                      by Sandia. He said that the policy for excessing property should
                      include guidelines for the exercise of management judgement
                      before property, such as a Paragon supercomputer, is sold.

Actions Taken by      Sandia did not take any action in December 1998 when Sandia
Sandia to Address     personnel first learned from INTEL of concerns that EHI may have
Concerns After the    had intentions of providing Paragon parts to the People’s Republic
Sale of the Paragon   of China. Sandia treated these concerns as “unsupported
                      speculation” insufficient to cause the matter to be brought to the
                      attention of Sandia’s export control or counterintelligence offices.
                      Then in June 1999, the concerns resurfaced, but were again not
                      reported to counterintelligence.

                      As a result, the Paragon remained in the possession of EHI from
                      December 1998 until July 1999 when the media raised concerns
                      about the sale. At this point in time, Sandia learned that a Chinese



Page 13                                                             Details of Findings
          national was the CEO of EHI, and Sandia, in coordination with
          Department officials, then took action. The Paragon was located,
          its storage location was put under surveillance, and negotiations
          were initiated to buy it back. On July 21, 1999, the Paragon was
          re-purchased from EHI for $88,888.88. The Paragon is currently
          in storage at Sandia’s facility in Livermore, California.

          Appendix II contains further details on the Department’s and
          Sandia’s actions between December 1998 and July 1999 to address
          concerns about the sale of the Paragon, including the issue of
          selling the Paragon to a Chinese national. Appendix II contains
          Sandia’s statement that it would have been a violation of the Civil
          Rights Act of 1970 to inquire about the nationality of the CEO of a
          U.S. Corporation as a condition of sale.




Page 14                                               Details of Findings
Recommendations   We recommend that the Manager, Albuquerque Operations Office,
                  direct that the following actions be taken by the Albuquerque
                  Operations Office:

                   1. Direct the Property Management and Administrative Services
                      Division to conduct a thorough review of Sandia’s High Risk
                      Personal Property Control Process and their Excess Sales
                      Process. Require Sandia to resubmit their written procedures
                      for approval after the necessary revisions are made to assure
                      full compliance with the provisions of the Department's
                      Property Management Regulations.

                   2. Place a moratorium on Sandia’s “Excess Sales or Sales-In-
                      Lieu-Of-Trade-In” until written procedures have been
                      approved.

                  We recommend that the Manager, Albuquerque Operations Office,
                  direct that the following actions be taken by Sandia:

                   3. Direct Sandia to revise their High Risk Property Control
                      Process guidelines and include specific language that
                      addresses export controlled property and proliferation
                      sensitive property, and submit this revision to the
                      Albuquerque Operations Office for approval.

                   4. Direct Sandia to develop formal procedures in their High Risk
                      Property Control Process for the evaluation of high risk
                      property for risks to national security and nuclear non-
                      proliferation, and submit this revision to the Albuquerque
                      Operations Office for approval.

                   5. Direct Sandia to expand their consideration of high risk
                      property beyond the more commonly identified items of high
                      risk personal property such as weapons and weapons
                      components.

                   6. Direct Sandia to conduct refresher training for all property
                      coordinators on the types of personal property that could
                      potentially be considered high risk, and on the process for
                      evaluating any risks to national security and nuclear non-
                      proliferation.

                   7. Direct Sandia to comply with all the requirements of the
                      Department’s Property Management Regulations regarding
                      the sanitizing of computer disks, and require Sandia to seek an
                      exemption for any deviation from these requirements.



Page 15                                                         Recommendations
              8.   Direct Sandia to use the export notice required by the
                   Department’s Property Management Regulations during the
                   transfer or sale of high risk personal property.

              9.   Direct Sandia to include the required export/import clause in
                   all sales invitations for bid.

             10.   Direct Sandia to review all high risk personal property and
                   associated materials for any deemed export concerns prior to
                   sale or transfer.

             11.   In coordination with the Albuquerque Operations Office,
                   direct Sandia to develop policy that includes senior Sandia
                   and Department management in the disposition decisions for
                   excess high risk property.

             12.   Direct Sandia to comply with the required reutilization
                   screening period established by the Property Management
                   Regulations.

             13.   Direct Sandia to re-emphasize to all Sandia personnel during
                   regularly scheduled security training that any concerns
                   relating to the inappropriate disposition of high risk property,
                   including export controlled property, need to be brought
                   immediately to the attention of Sandia’s export control and
                   counterintelligence offices.

             We recommend that the General Counsel:

             14. Issue a legal opinion on whether Department contractors may
                 legally inquire as to possible foreign ownership of companies
                 incorporated in the United States during the process of selling
                 excess personal property, and whether Department
                 contractors may refuse to sell excess property to a particular
                 company based on the foreign ownership.

Management   The Assistant Manager for Management and Administration,
Reaction     Albuquerque Operations Office provided a response to the draft
             report on December 10, 1999, and concurred or partially concurred
             with recommendations 1 through 13. The Assistant Manager
             stated that the draft report, in several instances, duplicated
             recommendations provided by the DOE HQ Incident Review Team
             (IRT) in their report on the sale of the Paragon dated September
             23, 1999. The Assistant Manager suggested that, in order to
             minimize duplicative work by DOE staff, the Office of the




Page 16                                                 Management Reaction
                     Inspector General (OIG) simply refer to the IRT report and
                     recommendations.

                     The Office of General Counsel provided a response on December
                     15, 1999, and concurred with recommendation 14.

                     The Director for the Office of Procurement and Assistance
                     Management provided a response on December 10, 1999. The
                     Director stated that his office concurred with the report’s
                     recommendations. However, the Director took exception with the
                     OIG conclusion that the “high risk assessment performed by
                     Sandia was not consistent with the Department’s Property
                     Management Regulations.”

Inspector Comments   We reviewed the Assistant Manager’s suggestion that the OIG
                     refer to the IRT recommendations in situations where the Assistant
                     Manager believed that there was duplication. As a result of this
                     review, we determined that the actions recommended in our report
                     are best served by retaining them as separate and distinct from the
                     IRT. We have reached this position for the following reason. The
                     Assistant Manager indicated that OIG recommendations 1, 3, 4,
                     and 6 are also addressed by the IRT recommendation 2. OIG
                     recommendations 1, 3, 4, and 6 address several weaknesses in
                     Sandia’s High Risk Property Control Process, including the failure
                     of Sandia’s written procedures to address critical elements of the
                     Department’s High Risk Property Management Procedures.
                     However, IRT recommendation 2 only addresses the establishment
                     of formal procedures to ensure that functional experts contribute to
                     transfer and sales decisions, and does not mention Sandia’s High
                     Risk Property Control Process or the Department’s High Risk
                     Property Management Procedures. In addition, the Assistant
                     Manager indicated that OIG recommendation 7 was addressed by
                     the IRT recommendation 5. However, IRT recommendation 5,
                     while addressing the same issue as OIG recommendation 7,
                     requires Sandia to comply with DOE PMR Part 109-45.307-53,
                     which does not exist. The correct citations are 109-45.309-51 and
                     109-43.307-53.

                     With regard to the exception taken by the Director for the Office of
                     Procurement and Assistance Management to the OIG conclusion
                     on Sandia’s high risk assessment, our report remains unchanged.
                     The Director’s position is not supportable based on the
                     Department’s criteria for high risk property and the application of
                     that criteria to the Paragon. In his response, the Director stated that
                     the Paragon would not meet the high risk criteria for “Nuclear
                     weapon component or weapon-like component.” However, the



Page 17                                                         Inspector Comments
          Director did not address the OIG position that the Paragon met the
          high risk criteria under the definition of “Export controlled
          property,” and could arguably have met the high risk criteria under
          the definition of “Proliferation-sensitive property.”




Page 18                                              Inspector Comments
Appendix I
Scope and     We reviewed the concerns surrounding the excessing, sale, and
Methodology   repurchase of the Paragon supercomputer by Sandia National
              Laboratories. In reviewing these concerns, we evaluated:

              •   The process used by Sandia to excess and sell the Paragon.

              •   The process used to approve the sale of the Paragon.

              •   The applicable property management requirements associated
                  with the excessing and sale of the Paragon.

              •   The applicable export control requirements associated with the
                  sale of the Paragon.

              •   The level of management that was involved in the approval of
                  the sale of the Paragon both within the Department and at
                  Sandia.

              •   The appropriateness of the actions taken by Sandia when
                  concerns regarding the Paragon were raised.

              As part of our review, we interviewed Sandia National
              Laboratories officials involved in the excessing, sale and
              repurchase of the Paragon supercomputer. We also interviewed
              Department of Energy officials at the Albuquerque Operations
              Office and Department Headquarters. In addition, we reviewed
              documentation relating to the excessing, sale and re-purchase of
              the Paragon, including: 1) Sandia electronic mail messages
              involving the excessing, sale and repurchase of the Paragon;
              2) Reclamation’s file on the Paragon supercomputer which
              contained documentation on the excessing and sale of the Paragon;
              3) Federal Property Management Regulations on the disposal of
              Property and the responsibilities of the holding agencies; 4) Code
              of Federal Regulations on DOE property management; 5) United
              States Code, Title 42, Chapter 21, subchapter I; 6) DOE and
              Sandia Policy on sanitizing magnetic media; 7) DOE regulations
              on disposal of computer media; 8) Sandia’s Personal Property
              Management Process Manual; 9) Proposed changes to the Sandia
              Personal Property Management Process Manual for the sale of
              excess property; 10) Relevant Export Administration Regulations;
              11) The Chief Information Officer’s notes on the sale of the
              Paragon supercomputer; 12) Property Management and
              Reapplication’s self-assessment; 13) An outside law firm’s advice
              to Sandia on the sale of the Paragon supercomputer; and 14)
              DOE’s Energy Asset Disposal System user guide. This inspection
              was conducted between July and October 1999.


Page 19                                              Scope and Methodology
Appendix I
             This inspection was conducted in accordance with the “Quality
             Standards for Inspections” issued by the President’s Council on
             Integrity and Efficiency.




Page 20                                             Scope and Methodology
Appendix II
ADDITIONAL CONCERNS According to Sandia’s Chief Information Officer, on
REGARDING THE SALE November 7, 1998, Sandia personnel directed the CEO of EHI to
OF THE PARAGON      INTEL after he had requested additional parts for the Paragon.
                    The Chief Information Officer said that in November or
                    December of 1998, INTEL personnel told a Sandia employee
                    that they were suspicious about the CEO of EHI and speculated
                    that the computer might already be in China.

                                    The INTEL Manager for Supercomputers said that he was first
                                    contacted by the CEO of EHI in July 1998, prior to the sale of
                                    the Paragon. He said that the CEO requested parts for a Paragon
                                    customer. He said that INTEL asked the CEO what the parts
                                    were going to be used for, and the serial number of the system
                                    for which the parts were intended. He said that the CEO of EHI
                                    gave incorrect serial numbers and would not identify the Paragon
                                    system for which the parts were intended. The INTEL Manager
                                    said that he already knew about two Paragon systems that had
                                    been sold to China.9 He said that he asked the CEO if the parts
                                    were intended for use in these two systems; and the CEO
                                    confirmed that the parts would be used for these two systems.
                                    However, the INTEL Manager said that the requested parts
                                    would not fit either of the systems that had been sold to China.
                                    He said that in August 1998, INTEL decided to disengage from
                                    any further discussion with the CEO of EHI because he believed
                                    that the CEO was not being truthful about the requested parts.

December 1998                       The INTEL Manager for Supercomputers said that he had
Concerns                            discussions with a Sandia Technical Staff member on the sale of
                                    the Sandia Paragon after the sale had taken place. The INTEL
                                    Manager believed that the CEO of EHI who had contacted him
                                    for the Paragon parts in July 1998 was the same individual who
                                    had purchased the Sandia Paragon. The INTEL Manager said
                                    that he told the Technical Staff Member that he felt the CEO of
                                    EHI was working with the Chinese, and that the CEO had not
                                    been truthful with INTEL regarding the requests for Paragon
                                    parts. On December 7, 1998, the INTEL Manager, at the request
                                    of the Technical Staff Member, sent an E-mail message that
                                    conveyed his concerns about EHI. The E-mail message, which
                                    was addressed to the Technical Staff Member, stated that “The
                                    name of the company that has been trying to get nodes, etc. from
                                    us is EHI Group USA Inc.” and that “… our contact has been
                                    [the CEO of EHI].” This message went on to state that the CEO


9
 According to the Sandia Chief Information Officer, a Sandia Technical Staff Member affirmed that the Department
of Commerce, in the 1994-1995 time frame, had approved the export of two Paragon computers to the People’s
Republic of China for seismic analysis related to oil exploration.


Page 21
Appendix II
                                    “… has not been truthful with us saying that he was getting parts
                                    for a Paragon customer…,” and that while “… we never got any
                                    confirmation, the feeling was the parts were headed to China.”

                                    The Sandia Technical Staff Member forwarded this E-mail
                                    message to the Property Administrator on the same day it was
                                    received. However, no action was taken to address INTEL’s
                                    concerns. The Sandia Chief Information Officer said that Sandia
                                    did not have reason to suspect involvement by the People’s
                                    Republic of China at the time of the sale. He said that it would
                                    have been a violation of the Civil Rights Act of 1970 to inquire
                                    about the nationality of the CEO of a U.S. Corporation, and then,
                                    on that basis, refuse to sell the Paragon after bids were received.10
                                    He said that INTEL’s “conjecture” to the Technical Staff Member
                                    was “unsupported speculation.” He said that, since nothing was
                                    publicly known then about China’s actions against National
                                    Laboratories, the “unsupported speculation” was insufficient to
                                    cause the Property Administrator or the Technical Staff Member to
                                    bring this matter to the attention of Sandia’s export control or
                                    counterintelligence offices.

July 1999                           According to Sandia’s Chief Information Officer (CIO), following
Concerns                            a two day security stand down on June 21 and 22, 1999, the same
                                    Sandia employee again discussed the sale of the Paragon to EHI
                                    and INTEL’s allegations (that the computer had been sent to
                                    China) with the Property Administrator. The matter was reported
                                    to the Export/Import Team Lead. The Team Lead checked the list
                                    of names of individuals to whom export controlled items should
                                    not be sold, and considered providing the information received
                                    from the Sandia employee to counterintelligence. However, he
                                    went on vacation without contacting counterintelligence.

                                    Concerns were raised by the media in mid-July about Sandia’s sale
                                    of a supercomputer. On July 13, 1999, a reporter from KOAT-TV
                                    in Albuquerque contacted the Sandia public relations organization.
                                    He said that a source told him that Sandia had sold a Cray
                                    Supercomputer to the People’s Republic of China. The Sandia
                                    Public Relations Office informed him that parts for a Paragon
                                    supercomputer were sold to an U.S. company in compliance with
                                    the requirements governing the sale of export-controlled property.



10
  42 United States Code section 1981, states that all persons within the jurisdiction of the United States shall have
the same right in every State and Territory to make and enforce contracts. Legal Counsel for Sandia stated that he
was not sure if Sandia could have refused to contract with the CEO of EHI. He said that decisions could not be
based on the color of skin or the ability to speak English.


Page 22
Appendix II
              On July 14, 1999, Sandia’s CIO discussed the sale of the Paragon
              with Sandia’s Senior Vice President for the Nuclear Weapons
              Program, the Sandia Senior Vice President for National Security
              and Arms Control, and the Department’s Deputy Assistant
              Secretary for Research, Development and Simulation. The Sandia
              CIO was appointed Sandia’s point-of-contact on the matter. On
              July 15, 1999, the Department’s Deputy Assistant Secretary for
              Research, Development and Simulation informed Sandia that the
              Under Secretary for DOE had assigned the Director of the
              Department’s International Policy and Analysis Division as the
              Action Officer.

              On July 14, 1999, Sandia’s Property Administrator contacted the
              CEO of EHI as a “quality check on the sale of export controlled
              property.” During this conversation, Sandia discovered that the
              CEO of EHI was a citizen of the People’s Republic of China. The
              Property Administrator requested a copy of the CEO’s “green
              card.” The CEO provided Sandia an Immigration and
              Naturalization Service “Notice of Action” approving EHI Group’s
              petition for a non-immigrant worker, Class L1A.

              The Sandia CIO said that on July 15, 1999, Sandia contacted
              INTEL to get information on the number of Paragon computers
              that had been sold. The CIO said that an INTEL employee told
              Sandia that the CEO of EHI had contacted INTEL frequently to
              ask for parts. The CIO said that during one such conversation, the
              CEO said he was trying to “prepare it for a customer in the
              People’s Republic of China.” However, the INTEL employee said
              that he never said, nor implied, to Sandia personnel that the Sandia
              Paragon system purchased by the CEO was going to China. The
              INTEL Manager for Supercomputers said that at no time did he, or
              the other INTEL employee, make any statement that they felt the
              Sandia Paragon system was going to China.

              The Sandia Senior Vice President for National Security and Arms
              Control stated that he had a discussion with the Assistant Secretary
              for Defense Programs and the Deputy Assistant Secretary for
              Research and Development within Defense Programs. The Senior
              Vice President said that he made the suggestion that the computer
              be repurchased. He said the Deputy Assistant Secretary agreed
              with him and confirmed the wisdom of repurchasing the Paragon.
              The CIO stated that he followed his initial direction from the Vice
              President to repurchase the Paragon, and that he received
              additional direction from the Department’s Action Officer on this
              matter.




Page 23
Appendix II
              On July 21, 1999, the CIO repurchased the Paragon supercomputer
              from EHI. According to the CIO, one of the considerations in
              arriving at the negotiated re-purchase price was the estimation of a
              price at which the CEO of EHI could preserve “face” with his
              Joint-Venture backers in China. In a document titled “EHI-USA
              Inc Business Analysis,” the CIO wrote “Assume Chinese’s Joint
              Venture backing him wants at least 18% return on their
              investment, plus equity position to justify the risk since stock
              market mutual fund returns of 18%.”




Page 24
                                                                    IG Report No. DOE/IG-0455

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers’ requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report’s overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we nay
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1024.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
effective as possible. Therefore, this report will be available electronically through the Internet at the
                                           following address:

                    U.S. Department of Energy Office of Inspector General Home Page
                                         http://www.ig.doe.gov


       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
